U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                      U.S. CENSUS BUREAU

    Management Controls Over Reimbursable
      Agreements at the U.S. Census Bureau
                         Need Improvement


    Final Audit Report No. FSD-16824-5-0002/March 2005




                             PUBLIC
                             RELEASE



                                      Office of Audits
      Financial Statements and Accountability Division
